   June 14, 2002




Acquisition

Allegations Concerning the
Defense Logistics Agency
Contract Action Reporting System
(D-2002-106)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
 fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

CAGE                 Contractor and Government Entity
COR                  Contracting Officer’s Representative
DCARS                Defense Logistics Agency Contract Action Reporting System
DLA                  Defense Logistics Agency
IG DoD               Inspector General of the Department of Defense
SAIC                 Science Applications International Corporation
          Office of the Inspector General of the Department of Defense
Report No. D-2002-106                                                           June 14, 2002
   (Project No. D2002CF-0052)

            Allegations Concerning the Defense Logistics Agency
                     Contract Action Reporting System

                                 Executive Summary

Who Should Read This Report and Why? Defense officials responsible for changes
and upgrades to information technology systems should read this report because it
addresses the need for proper acquisition planning and contract management.

Background. This audit was performed in response to allegations made to the Defense
Hotline concerning the contract for modernization of the Defense Logistics Agency
Contract Action Reporting System. The complainant alleged that the Defense Logistics
Agency did not properly plan, execute, or manage the contract to re-host the Contract
Action Reporting System from a mainframe computer to a mid-tier computer. The
complainant also alleged that the contractor did not fulfill the performance obligations in
accordance with the contract requirements.

The Defense Logistics Agency awarded a task order on an existing multiple award
contract to Science Applications International Corporation on March 13, 1998, at a cost
of $333,137 for re-hosting the Contract Action Reporting System. The contract task was
to modernize the Defense Logistics Agency system for capturing, validating, storing, and
retrieving information relating to contract actions. The projected completion date for the
contracted work was July 1998.

Results. The re-hosted system is currently operational and now more effective but the
modernization effort could have been completed sooner and at a lower cost. The Defense
Logistics Agency did not effectively plan and execute the upgrading of the Contract
Action Reporting System. The Agency:

   •   was overly optimistic in its assessment of the contractor’s abilities;

   •   improperly awarded the task orders to re-host the Contract Action Reporting
       System;

   •   expressed concerns about the re-host project, but did not address the concerns
       until problems were apparent; and

   •   performed little oversight of the contractor.
As a result, completion of the effort slipped by nearly 17 months and the final cost
exceeded original estimates by about $507,000. Because of the delay, the agency also
had to upgrade the original mainframe software to make it Year 2000 compliant, which it
originally intended to avoid, at a cost of about $298,000. For details on the audit results,
see the Finding section of the report.

The complainant raised 10 issues addressing performance and administration deficiencies
with the Defense Logistics Agency Contract Action Reporting System contract. The
results of our review substantiated 2 of the 10 allegations, partially substantiated 3 of the
allegations, and did not substantiate 5 of the allegations. See Appendix B for a discussion
of the specific issues raised by the complainant.

Management Comments. We provided a draft of this report to the Defense Logistics
Agency on May 16, 2002, for review and comment. No written response to this report
was required, and none was received. Therefore, we are publishing this report in final
form.




                                             ii
Table of Contents

Executive Summary                                                      i


Background                                                             1


Objectives                                                             2

Finding
     Acquisition of the System Upgrade                                 3

Appendixes
     A. Audit Process
          Scope                                                        9
          Methodology                                                  9
          Prior Coverage                                              10
     B. Responses to Issues Raised in the Defense Hotline Complaint   11
     C. Report Distribution                                           17
Background
    Defense Hotline Allegations. We performed the audit in response to allegations
    made to the Defense Hotline concerning administrative and contractor
    nonperformance issues associated with the upgrading of the Defense Logistics
    Agency Contract Action Reporting System (DCARS). The complainant alleged
    that the Defense Logistics Agency (DLA) improperly planned, executed, and
    managed the contract to re-host DCARS from a mainframe to a mid-tier
    computer. The complainant also alleged that the contractor did not fulfill the
    performance obligations in accordance with the contract requirements. See
    Appendix B for a discussion of the specific allegations raised by the complainant
    and the results of our review.

    Defense Logistics Agency Contract Action Reporting System. The DCARS
    application captured, stored, and reported contract information on the Individual
    Contracting Action Report (DD Form 350) for approximately 25 DLA activities
    distributed throughout the United States, Europe, and the Pacific. Currently, the
    system collects 93 different facts and statistics about each contract awarded by
    DLA over $25,000. This information includes data such as contractor name, type
    of contract, amount of award, and date of award. DLA, the Office of the Secretary
    of Defense, and private industry use DCARS information. Approximately
    550 users have logon access. Information in the system is maintained by month
    and fiscal year, and provides for up to 6 years of historical contract activity.

    DCARS on the Mainframe Computer. The mainframe computer hosting
    DCARS was a batch processing system. The DCARS application captured input
    transactions from remote users’ locations through a variety of telecommunication
    interfaces, including the DLA network, direct dial-up, and the Internet. Daily
    input transactions were accumulated and stored in a daily transaction file on a
    mainframe computer located at the Defense Megacenter, Columbus, Ohio. At the
    end of each business day, this file was processed, which included transaction
    editing, error reporting, and database updating.

    DCARS on the Mid-Tier Computer. The mid-tier computer hosting DCARS
    has the capability to capture and validate input transactions in an on-line,
    real-time environment. The user workload associated with data entry was reduced
    through an improved distribution of DCARS functionality between client and
    server.

    Platform Study - Re-Host DCARS Project. The DLA Systems Design Center
    conducted a study dated December 12, 1997, for the re-host project. The study
    stated that DCARS computer processing via a mainframe computer system was
    antiquated, unsupportable, and incapable of valid operation in the Year 2000. The
    study also stated that “Changes in information technology and DLA requirements
    created the opportunity to investigate new, technically feasible and economically
    justifiable ways of satisfying DLA information needs through automated
    systems.” The study concluded that re-hosting DCARS from a mainframe to a
                                        1
     mid-tier computer was compatible with forecasts of change in the DLA business
     environment and attendant information processing needs. The study clearly stated
     that DCARS urgently needed re-hosting from the mainframe computer for
     continued operations, and that the level of change required was significant.


Objectives
     Our overall objective was to determine whether the Defense Hotline complaint
     had merit. Specifically, we assessed whether DLA executed effective contract
     planning and administration procedures and whether the contractor fulfilled its
     performance obligations, as stated in the contract. See Appendix A for a
     discussion of the audit scope and methodology.




                                         2
            Acquisition of the System Upgrade
            DLA did not effectively plan and execute the re-host of the Contract
            Action Reporting System from a mainframe to a mid-tier computer. This
            occurred because DLA awarded the contract task order without properly
            researching, planning, and assessing past contractor performance. Also,
            DLA did not adequately monitor the contractor’s progress. As a result, the
            project completion slipped from July 1998 to November 1999, and the
            final cost exceeded the original cost estimates by about
            $507,000. Because of the delay, DLA also had to upgrade the mainframe
            application software for Year 2000 compliance, an upgrade DLA
            originally intended to avoid, at a cost of about $298,000.


Upgrading DCARS
     Re-Hosting DCARS. The December 1997 DLA study on the feasibility of
     modernizing DCARS concluded that it was cheaper and more efficient in the long
     term to remove the application from the mainframe computer and design a new
     application using current technology. The mainframe computer was at least 14
     years old and was running a program containing outdated computer language.
     The study concluded DCARS should operate from a mid-tier computer, which
     would be interactive with its users.

     Contract Award. DLA awarded task order 9, a time-and-material order on
     March 18, 1998. DLA awarded the task order, valued at $333,137, on a sole-
     source basis to Science Applications International Corporation (SAIC) under an
     existing multiple-award contract. DLA selected SAIC as the prime contractor in
     order to have its subcontractor, NCI, Incorporated (NCI, Inc.), perform the re-
     hosting work. The re-host project was scheduled for completion by July 1998.
     The broadly written statement of work for this task order stated that the system
     must provide for the daily input, validation, retrieval, and storage of DLA contract
     actions on-line.


Criteria
     Acquisition Planning. Federal Acquisition Regulation, Subpart 7.1, “Acquisition
     Plans,” requires that agencies perform acquisition planning and conduct market
     research for all acquisitions. Such research includes matching contractor
     capabilities and past performance. Acquisition planners should address the
     requirements to specify needs, develop specifications, and solicit offers in such a
     manner as to promote and provide for full and open competition with due regard
     to the nature of supplies and services to be acquired.

     Contract Surveillance. Federal Acquisition Regulation 16.601, “Time-and-
     Materials Contracts,” states that this type of contract provides no positive profit
                                           3
    incentive to the contractor for cost control or labor efficiency. Therefore,
    appropriate Government surveillance of contractor performance is required to give
    reasonable assurance that efficient methods and effective cost controls are being
    used.

    Contract Administration. Federal Acquisition Regulation 42.302, “Contract
    Administration Functions,” requires the contracting officer to perform the
    following administrative functions that apply to the contract to re-host DCARS
    from a mainframe to a mid-tier computer.

       •   Review and approve or disapprove the contractor’s requests for payments
           under the progress payments or performance-based payment clauses.

       •   Perform production support, surveillance, and status reporting, including
           timely reporting of potential and actual slippages in contract delivery
           schedules.

       •   Perform engineering surveillance to assess compliance with contractual
           terms for schedule, cost, and technical performance in the areas of design,
           development, and production.

       •   Evaluate for adequacy and perform surveillance of contractor engineering
           efforts and management systems that relate to design, development,
           production, engineering changes, subcontractors, tests, management of
           engineering resources, reliability and maintainability, data control systems,
           configuration management, and independent research and development.

       •   Review and evaluate for technical adequacy the contractor’s logistics
           support, maintenance, and modification programs.


Planning
    Planning the Re-Host Project. DLA did not adequately plan the requirements or
    conduct research to determine what detailed work was required to re-host DCARS
    to a mid-tier computer. The only documentation found in the contract file relating
    to requirements documentation was the December 1997 DCARS study. However,
    the study only provided a general outline of the functional and technical
    requirements for the re-host project. It did not address the specific actions
    required to accomplish the contract requirements, such as researching how the
    validation files containing Contractor and Government Entity (CAGE) code data
    would interact with the mid-tier computer, or the feasibility of moving the CAGE
    code file from the mainframe to the mid-tier computer.

    A DLA computer specialist assigned to DCARS stated in January 1998, before the
    contract was awarded, “We may have to view CAGEFILE [CAGE code file] and
    DCARS as two separate systems (which is how they function) and approach the
    problem from that perspective.” There was no indication that DLA management
    evaluated this alternative approach. In retrospect, this may have been a more

                                         4
    effective approach. Furthermore, we found no evidence of a blueprint being
    established when certain events should have occurred if the re-host was on
    schedule. This would have provided managers a mechanism to evaluate progress.

    Contractor Selection. The noncompetitive selection of SAIC as the prime
    contractor was not adequately or accurately justified. DLA chose the prime
    contractor only on the basis of whom DLA wanted as the subcontractor and the
    availability of the multiple award schedule contract to quickly place the
    requirement on the contract. DLA did not review the past performance of the
    prime contractor or the subcontractor to determine if they had experience with this
    type of work. The contracting officer stated in the March 1998 sole-source
    justification for selecting SAIC, that the SAIC subcontractor, NCI, Inc., had
    unique knowledge of the mainframe computer. However, according to internal
    correspondence addressing the subcontractor selection as well as an admission by
    the subcontractor’s project manager, NCI, Inc. did not have specific knowledge of
    the mainframe computer required to complete the re-host project. Also, DLA
    internal correspondence identified a different contractor that may have had
    knowledge of the mainframe computer integration and parallel processing and
    may have been capable to perform work needed for the re-host project. However,
    there was no indication or documentation that this alternate vendor was further
    considered. DLA should have considered all contractors on the multiple award
    contract for the re-host work, not just SAIC.


Contractor Performance
    Missed Deadlines. The DLA Administrative Support Center awarded task
    order 9 on March 18, 1998, to re-host DCARS from a mainframe to a mid-tier
    computer at a cost of $333,137 with the intention that NCI, Inc. would perform
    the entire effort. The application program for the re-host project was projected for
    completion by July 1998. By June 1998, the subcontractor could not obtain the
    necessary information required to complete the project. Therefore, on August 14,
    September 30, and October 20, 1998, DLA issued modification
    Nos. 3, 4, and 5 extending the period for completing performance on task
    order 9 from July 1998 to November 1998 and increasing the task order amount
    from $333,137 to $444,169. We could not measure the subcontractor’s
    performance from July through November 1998 because the subcontractor did not
    prepare the in-process reviews during that time period.

    In February 1999, DLA awarded task order 16 for $396,315 to SAIC for ongoing
    operational, technical, and maintenance support of the DCARS application on the
    mid-tier computer for a period of 1 year. There is no evidence that DLA
    reassessed contractor performance prior to award of the task order. The total
    value of task orders 9 and 16 was $840,484, of which SAIC received over
    $77,000 for being the prime contractor.




                                         5
DLA established a 2-month test period following completion of the re-host project
to validate the mid-tier application and 1 year of parallel testing. This testing
extended the completion date to November 1999. DLA later condensed the
2-month test period to 2 weeks in order to meet the November 1999 operational
deadline. During the test period, DLA found 12 deficiencies with the DCARS
application on the mid-tier computer and it became apparent that the operational
date of the mid-tier computer would not be met.

Task order 16 required SAIC to correct the 12 deficiencies found during the
2-week test at no cost to the Government. SAIC and its subcontractor agreed to
complete the work on these deficiencies prior to the start of other work on task
order 16. No documentation exists to show whether SAIC corrected the
deficiencies at no cost to the Government. Also, according to subcontractor and
DLA personnel, the development work to re-host DCARS was still ongoing when
DLA awarded task order 16 for maintenance support. The contractor work plan in
the in-process review report, dated June 23, 1999, also indicates that the
subcontractor was still developing DCARS on the mid-tier computer under task
order 16. Task order 16 did not specify performing development work under the
maintenance task order.

Dual Systems. The DCARS re-host project required DLA to operate both the
mainframe and the mid-tier computer concurrently for parallel testing. DLA
would then shut down the mainframe computer after all DCARS information was
verified and deemed accurate in the mid-tier computer. However, SAIC and its
subcontractor did not develop the DCARS application on the mid-tier computer
until November 1999. Because of the delay in the development of DCARS on the
mid-tier computer, the mainframe computer software remained operational and
had to be made Year 2000 compliant. As a result, DLA upgraded the mainframe
computer application at a cost of $298,498. This cost could have been avoided
had adequate planning and execution been accomplished.

During FY 2000, DLA maintained dual systems for testing purposes. DLA had to
maintain dual systems a second year because the CAGE code file was too large
and could not be transferred to the mid-tier computer. Had DLA researched the
elements of the CAGE code file prior to awarding task order 9, DLA would have
realized that the CAGE code file was too large to transfer. According to DLA, the
mid-tier computer was fully operational and the CAGE code file was the only
program operating on the mainframe computer. Dual systems were maintained
until October 2001, when the Federal Acquisition Regulation Council eliminated
the CAGE code file requirement (see Appendix B, Issue 5).




                                    6
Contractor Oversight
    Generally, contractor oversight was lacking. Little documentation existed to show
    that DLA exercised due care. Monthly progress reports were not always required,
    and we could not determine if DLA took any actions based on the reports
    received. Also, we found no evidence that DLA reviewed contractor billings for
    reasonableness prior to payment.

    Monthly In-Process Reviews. A DLA March 18, 1997, memorandum appointed
    the Contracting Officer’s Representative (COR) for task order 9 and stated that
    the COR was responsible for reviewing and approving all progress and financial
    reports. According to Federal Acquisition Regulation Part 42, Government
    surveillance of the contractor should include comparing progress reports from the
    monthly in-process reviews with the projected milestones and actual tests at
    certain stages to ensure that the contractor was making the required progress.

    The prime contractor was required by the contract to provide monthly in-process
    reviews identifying progress towards meeting the projected milestones. However,
    the monthly in-process reviews from August 1998 through January 1999 could not
    be located. The subcontractor stated that DLA did not require the preparation of
    in-process reviews during this time, although DLA had modified the task order to
    extend the period of performance and increase its value. Therefore, performance
    was difficult to measure between August 1998 and January 1999 and an increase
    in the cost of the contract could not be justified. Furthermore, DLA did not
    provide adequate surveillance of the subcontractor during this time. No
    documentation existed in the contract file or the COR file explaining why the
    period of performance was extended or what work was required to be completed
    on the project.

    Review of Invoices Submitted. According to the COR appointment
    memorandum, the COR was responsible for reviewing contractor invoices. We
    found no documentation to indicate that the COR reviewed the invoices when
    development work was performed. We could not determine whether excessive
    labor hours were applied to the task orders. The lack of surveillance by the COR
    may have resulted in erroneous payments to the subcontractor.


Prior Audit Coverage
    Acquisition procedures for multiple award contracts were addressed in prior
    Inspector General of the Department of Defense (IG DoD) reports. In Report
    No. 99-116, “DoD Use of Multiple Award Task Order Contracts,”
    April 2, 1999, we reported that contracting officers awarded task orders on
    multiple award contracts on a sole-source basis when they were required to
    provide all awardees a fair opportunity to be considered. We reviewed task
    order 9 during this audit as well as during the prior audit. We also reported that
    contracting officers awarded task orders without regard to price even though price
    was a factor in the selection of vendors for the initial multiple award contract. We

                                         7
    recommended that the Under Secretary of Defense (Acquisition and Technology)
    direct that multiple award contracts be used only in situations in which all
    contractors are capable of performing all work under the proposed contract and
    that task order selection should include price as a primary and substantial factor in
    selection. On September 30, 2001, we issued another report entitled “Multiple
    Award Contracts for Services,” Report No. D-2001-189, that addressed directing
    contracts by sole-source awards, planning of contract requirements, and other
    problems discussed in this report. In the 2001 report, we recommended that all
    contractors that were part of a multiple award contract be given an opportunity to
    compete for the work. Subsequently, section 803 of the National Defense
    Authorization Act for Fiscal Year 2002 (Public Law 107-107) was enacted, which
    requires substantial changes in DoD policy, competition, and planning for
    purchasing services under multiple-award contracts. In addition, contracting
    personnel that were assigned to the development of the DCARS contract are either
    not currently employed with the Defense Logistics Agency or not assigned to
    contracting actions involving the contract. Accordingly, we are not making
    recommendations addressing additional policy, procedural changes, or personnel
    actions in this report.


Conclusion
    The task order that DLA awarded noncompetitively on an existing multiple award
    contract for the re-hosting project was not adequately or accurately justified. DLA
    did not properly research, plan, and assess contractor past performance prior to
    award of the task order. DLA established an unrealistic milestone to have the
    mid-tier computer operational by the beginning of FY 1999. Had DLA conducted
    the proper research and performed the necessary acquisition planning, specific
    requirements could have been established and a reasonable deadline could have
    been met. As a result, DLA got its system much later than it should have and
    DLA paid more than it should have.




                                          8
Appendix A. Audit Process

Scope
    Work Performed. We reviewed issues raised in a Defense Hotline complaint
    alleging contractor nonperformance with an information technology contract for
    upgrading DCARS.

    We visited functional and procurement personnel at Headquarters, DLA, as well
    as the subcontractor and the complainant. We met or contacted personnel at
    Headquarters, Washington Headquarters Services and at Headquarters, Naval Sea
    Systems Command (see Appendix B for clarification).

    We analyzed two task orders and related modifications under one contract, valued
    at $840,484, for the development and maintenance of the DCARS application on
    the mid-tier computer. We also analyzed contract documents, including
    information from the COR file, and correspondences between DLA, the
    subcontractor, and the complainant. The documents were dated between
    December 1997 and February 2002.

    See Appendix B for the specific issues raised by the complainant and our
    conclusions.

    Limitations to Scope. The scope of the audit was limited to the issues addressed
    in the Defense Hotline complaint. We did not review the DLA management
    control program for awarding contracts for services.

    General Accounting Office High-Risk Areas. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Systems Modernization high-risk area, as well as the DoD Contract
    Management high-risk area.


Methodology
    Use of Computer-Processed Data. We did not rely on computer-processed data.

    Audit Dates and Standards. We performed the audit from January 2002 through
    May 2002 in accordance with generally accepted government auditing standards
    except for the scope limitation discussed above.

    Contacts During the Audit. We visited or contacted the subcontractor and
    individuals and organizations within DoD. Further details are available upon
    request.



                                        9
Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense has
    issued two reports relating to the contract for the Defense Logistics Agency
    Contract Action Reporting System.

    Inspector General of the Department of Defense (IG DoD)

    IG DoD Report No. D-2001-189, “Multiple Award Contracts for Services,”
    September 30, 2001

    IG DoD Report No. 99-116, “DoD Use of Multiple Award Task Order Contracts,”
    April 2, 1999




                                        10
Appendix B. Responses to Issues Raised in the
            Defense Hotline Complaint

Issue 1. Return on Investment
The complainant alleged that, “there was no return on investment, and in fact the costs are
greater now than if almost any other approach had been taken.”

Audit Results. This issue was substantiated. DLA estimated that the DCARS
application on the mid-tier computer would be developed by July 1998, at a total
operational cost of $1,029,300. The operational cost included nonrecurring and recurring
costs. The nonrecurring costs included hardware, software, and labor costs to re-host
DCARS, and the recurring costs included the operating system costs. The estimated
recurring cost to operate the mid-tier computer was $18,833. The estimated cost to
operate the mainframe computer in FY 1999 was $374,235. DLA estimated that the
payback period to re-host DCARS from a mainframe to a mid-tier computer would be
2.03 years. However, the mid-tier computer was not operational until November 1999.
The total cost to develop the mid-tier computer increased from $1,029,300 to
$1,604,820. In addition, DLA awarded maintenance contracts in FYs 2000 and 2001 at a
cost of $484,714 and $382,992, respectively.

Our analysis for re-hosting DCARS to a mid-tier computer showed negative savings of
over $2 million in the first 4 years of operation. Negative savings would continue if DLA
awarded additional maintenance contracts for the mid-tier computer. Although there has
not been a positive return on investment by re-hosting the mid-tier computer, the mid-tier
computer is more efficient than the mainframe computer.


Issue 2. Duplicate Systems
The complainant alleged that:
                  “WHS [Washington Headquarters Services] uses the CAGE [code]
                  transaction information to verify their database as well as the data from
                  the Air Force. I do not believe that WHS will have access to the data if
                  the [mainframe computer] system is shut down. This would mean that
                  WHS would also have to take on the task of developing a duplicate
                  system.




                                                11
                  NAVSEA [Naval Sea Systems Command] does indeed use this data
                  [CAGE codes] and has a current need for it. NAVSEA has looked at
                  getting the raw data from the Defense Logistics Information Services
                  (DLIS). They found however that the raw data is not in a useable
                  format and that it would require the development of a new system.”

Audit Results. This issue was unsubstantiated. Washington Headquarters Services
confirmed that the DCARS application on the mid-tier computer and the elimination of
the CAGE code data from the mainframe computer were not hindrances to the efficiency
of operations. Washington Headquarters Services had converted to the Data Universal
Numbering System and found it more accurate for contract reporting. The Federal
Acquisition Regulation has also been updated to implement the Data Universal
Numbering System for contractor identification.

On March 31, 1998, the Director of Defense Procurement required domestic contractors
to register in the Central Contractor Registration database in order to be eligible for
contract awards after May 31, 1998. The database contained both the Data Universal
Numbering System and CAGE codes. Washington Headquarters Services received
updated Data Universal Numbering System numbers. The updates included linkage
showing the ownership of companies, and, therefore, a “family tree” was established. If
Washington Headquarters Services received a CAGE code that required verification, the
information was available. The Naval Sea Systems Command used CAGE codes for
contract identification reporting. However, the Command was currently planning to
access the Central Contractor Registration database so it could implement the Data
Universal Numbering System for contractor identification.

We concluded that the re-hosting of DCARS on the mid-tier computer and the subsequent
elimination of the CAGE code data did not hinder the effectiveness and efficiency of
contract reporting for the Washington Headquarters Services and the Naval Sea Systems
Command.


Issue 3. Contractor Work Plan
The complainant alleged that, “there is no overall plan or work breakdown structure for
completion.”

Audit Results. This issue was unsubstantiated. The prime contractor submitted a work
plan to DLA during the April 1998 in-process review. In that work plan, the
subcontractor stated that it had begun to review system requirements in March 1998, and
would complete the work in June 1998. A second work plan was submitted to DLA on
June 23, 1999, coinciding with the first maintenance task order. Although this work plan
was classified as maintenance, certain elements indicated that development of the
DCARS application on the mid-tier computer was still taking place. Although the project
was not completed by the established milestone date, a work breakdown structure was
submitted to DLA (see the Finding).




                                              12
Issue 4. Requirements Documentation
The complainant alleged that, “there are no defined requirements.”

Audit Results. This issue was unsubstantiated. The platform study developed in
December 1997 evaluated the technical, functional, and economic feasibility of
re-hosting DCARS using Oracle Database Management. The study determined the
requirements of the project. Although the requirements outlined in the study were vague
in nature, a more modern, technological system, designed to meet DLA business needs,
was outlined. The platform study used the DLA Information Resource Management
strategy and the DLA Architecture Guidelines to provide guidance in evaluating alternate
means to providing DCARS functionality. Functional requirements were established
after reviewing the current DCARS application, along with the management strategy and
architecture guide.

After reviewing the options presented in the study, DLA decided to re-host the DCARS
application on the mid-tier computer. Re-hosting DCARS provided DLA with a
migration path for a continual evolution of the system, consistent with current and future
DLA vision and strategies.


Issue 5. Maintaining Concurrent Systems
The complainant alleged that, “for the last three and a half years, two systems had to be
maintained at the same time.”

Audit Results. This issue was partially substantiated. From March 1998 to November
1999, DLA concurrently maintained the mainframe computer while the mid-tier computer
was being developed. All DCARS information was entered on the mainframe computer
at this time because it could not be entered on the mid-tier computer during development.
Once the development of the DCARS application on the mid-tier computer was complete,
parallel processing with the mainframe computer was conducted. Therefore, for
FY 2000, DLA maintained concurrent systems for testing purposes.

After the parallel testing was complete, the two systems ran concurrently for a second
year because the CAGE code file was too large to be transferred over to the mid-tier
computer. DLA confirmed that the CAGE code file was the only program operating on
the mainframe computer.

In October 2001, the Federal Acquisition Regulation Council eliminated the CAGE code
file requirement. DLA requested stopping CAGE code transmissions from the mainframe
computer on December 20, 2001. Transmissions ceased effective January 6, 2002, and
the mainframe computer was shut down, after only 2 years of running concurrently with
the mid-tier computer (see the Finding).




                                            13
Issue 6. Contractor Surveillance
The complainant alleged that, “the contractors are making little progress and are not being
held to any completion projections.” The complainant further alleged that, “there is little
or no documentation.”

We interpreted these allegations to mean that the Government was not providing adequate
contractor surveillance over the contractor performing the re-host project.

Audit Results. This issue was partially substantiated. We reviewed the COR file and
found minimal documentation related to the re-host project. There were only four
invoices from the date the contract was awarded, March 1998, to when the mid-tier
computer became fully operational. Furthermore, we could not locate in-process reviews
between August 1998 and January 1999, the time period when the initial development
contract was extended. In addition to lacking surveillance documentation, DLA did not
document a justification for the extension of the re-host project.

DLA kept minimal documentation related to the re-host project. DLA did not monitor
the completion projections on the project nor did it justify an extension to the period of
performance (see the Finding).

Issue 7. Year 2000 Upgrade
The complainant alleged that, “the re-host project of course was not completed in time for
Y2K [Year 2000] and those changes as well as the OS/390 had to be made to the existing
legacy [mainframe computer] system.”

Audit Results. This issue was substantiated. When DLA made the decision to re-host
DCARS, Year 2000 compliance for the mainframe computer application was not an
issue. According to the original statement of work, parallel testing would be conducted
during FY 1999 and the mainframe computer would be shutdown by FY 2000, after all
information was verified and accurate for the mid-tier computer. Because of delays in the
period of performance for the DCARS development contract, the mainframe (legacy)
computer application had to be made Year 2000 compliant because the DCARS
application on the mid-tier computer was not completed in time for parallel testing in
FY 1999 (see the Finding).

A DLA Systems Design Center undated document entitled, “Justification for DCARS
Migration to OS/390,” stated that, “All [DLA] applications residing on the mainframe
[computer] system must be upgraded to the OS/390 operating system as a mandatory step
in achieving Y2K [Year 2000] compliance.” The justification further stated that DLA
could either re-host DCARS and remove it from the mainframe computer, or upgrade to
the OS/390 operating system before other mainframe computer applications could be
upgraded. When the period of performance for the mid-tier contract was extended, DLA
requested that the mainframe (legacy) computer be upgraded to OS/390 to eliminate any
possible impact on other mainframe computer migration schedules. The DLA service
order identified the final cost for the mainframe computer upgrade to be $298,498.


                                             14
Issue 8. Replication of Reports
The complainant alleged that, “there are close to one hundred reports the contractors and
customers originally identified that have not been completed in the three years of
effort.”

Audit Results. This issue was unsubstantiated. The complainant provided a list with
60 report titles. The complainant felt that these reports should have been included in the
mid-tier computer system. System users identified 33 of the 60 reports as available in the
mid-tier computer. Fourteen of the 60 reports contained data no longer required or
necessary for contractor reporting; 7 of the 60 were no longer used by DLA users or
management; and 1 of the 60 was eliminated due to a low volume of use. DLA had no
prior knowledge of the remaining five reports listed by the complainant.

The Discoverer feature of Oracle enabled users to generate ad hoc report queries, which
they were unable to obtain from the mainframe computer. Using the ad hoc feature
enabled users to specify any or all fields to be shown for a specific report. With the
mainframe computer, when a report was requested, the user would not receive the
information until the next business day. With the mid-tier computer, reports were
generated in real time, allowing the users to immediately obtain their requested
information.

The reports contained in the list provided by the complainant were either available on the
mid-tier computer, available through an ad hoc query report, or were eliminated from use.


Issue 9. Required Training
The complainant alleged that, “it will not be possible for end users, with or without
training, to replicate these programs” that operate the mid-tier computer.

Audit Results. This issue was unsubstantiated. The “programs” that operate the mid-tier
computer are reports generated by using the Discoverer feature of Oracle. According to
the DCARS customer representative at DLA, training for Oracle’s Discoverer feature was
provided to the end users on an as-needed basis. Although many end users decided not to
receive this training because of the system’s ease-of-use, when training was needed, the
appropriate training arrangements were made.

DCARS users at DLA stated that the new system was easy to operate and that
improvements have been made. We reviewed the Oracle Discoverer feature, the software
that allows end users to access DCARS reports. Oracle stated that, “Anyone familiar
with using a web browser can use Discoverer” because it “reduces the learning curve with
an easy to use web interface.” Oracle also stated that, “Discoverer was designed
specifically with the end user in mind and has a proven track record in ease- of-use.”
DLA users can and have replicated the Oracle Discoverer software programs to operate
the mid-tier computer with little or no training.




                                            15
Issue 10. Mid-Tier Project Completion
The complainant alleged that DLA is:
                   “Continuing to employ and pay contractors who have not performed
                   according to the original contract. They are purposely covering up the
                   fact that the contractors are not performing, and are not competent to
                   perform the work for which they have been contracted.”

The complainant alludes to the fact that DLA knew the mid-tier computer to be
ineffective and a failure.

Further, the complainant alleged that the mid-tier project:
                   “that was projected for completion prior to the Year 2000, to this day
                   (more than three years after its start) is still not complete. The project
                   was originally projected for 90 days and has exceeded three years with
                   no end in sight. When you consider the work still to be completed, I
                   estimate generously that only one third of the system has been
                   completed. And that part does not work properly.”

The complainant further stated that the contractors were making little progress and were
not being held to any completion date(s).

Audit Results. This issue was partially substantiated. In March 1998, DLA awarded a
contract to re-host DCARS on a mid-tier computer. The re-host project was scheduled
for completion in July 1998, at a cost of $333,137. This contract was extended to
November 1998, at a cost of $444,169. No evidence existed in the contract file
documenting final acceptance of the mid-tier computer by DLA.

In February 1999, the contract was again extended for ongoing operational, technical, and
maintenance support of the mid-tier computer for a period of 1 year. Although this
contract was specifically for maintenance work, the subcontractor stated that additional
development work was done. According to DLA, the DCARS re-host project was
completed in November 1999. Again, no documentation existed in the contract file
indicating the final acceptance for delivery of the new mid-tier computer.

To verify the completion date of the mid-tier computer, we reviewed numerous DLA
internal memoranda. An e-mail message entitled “Final Review and Analysis of the
DCARS Re-Host Software package” stated that the mid-tier application was tested in
September and October 1998, but failed. A DLA message indicated that the mid-tier
computer would move into production in September 1999, yet another message to all
DLA users indicated that the new mid-tier computer would be deployed in
October 1999. These messages indicated dates of completion well past the extension to
the original period of performance of November 1998 (see the Finding).

Despite the extensions in the period of performance and the completion of development
work under the maintenance contract, the mid-tier computer was completed in November
1999.

                                                 16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
      Deputy Chief Financial Officer
      Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Sea Systems Command


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Logistics Agency
Director, Washington Headquarters Services


Non-Defense Federal Organization
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
       Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
       Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
       Government Reform




                                          18
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
Terry L. McKinney
Nicholas E. Como
Gopal K. Jain
John A. Seger
Gwynne M. Roberts
Julie A. Yerkes
Lisa Rose-Pressley
